                      U.S. Department of Agriculture
                         Office of Inspector General




       Summary of Nationwide
Electronic Benefits Transfer Operations




                              Audit Report 27099-71-Hy
                                         January 2010
                               U.S. Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:         January 26, 2010

REPLY TO
ATTN OF:      27099-71-HY

TO:           Julie Paradis
              Administrator
              Food and Nutrition Service

ATTN:         Lael Lubing
              Director
              Grants Management Division

FROM:         Tracy LaPoint /s/
              Acting Assistant Inspector General
                 for Audit


SUBJECT:      Summary of Nationwide Electronic Benefits Transfer (EBT) Operations


Summary

We conducted our audit, in part, to evaluate retailer verification controls over EBT transactions
processed through third party processors (TPP). Although we found that the Food and Nutrition
Service (FNS) generally had adequate controls over these processes, we did note one area in
which we believe that the agency’s control could be strengthened. In reviewing Special
Nutrition Assistance Program (SNAP) transactions at three TPPs for October 2008, we identified
a small number of instances in which retailers redeemed SNAP benefits using incorrect store
authorization numbers. Most of these instances involved either chain stores that incorrectly
assigned the same authorization number to more than one of their stores, or input errors made by
TPPs. Although FNS regulations require that the retailer authorization number accompanying
each SNAP transaction be matched to the agency’s database of authorized retailers, this control
does not identify cases where otherwise valid authorization numbers are used by retailers other
than those to whom they were assigned. FNS’ current policy is to deal with these situations on a
case-by-case basis as they occur. However, this weakness does carry the potential for program
misuse. The items we identified were not material enough to justify a formal recommendation.
However, FNS has agreed to take actions to address these issues. FNS plans to work with the
EBT community to ensure the proper retailer authorization number is used and, if necessary,
updated with accurate information in a timely manner.

We also conducted our audit to determine if FNS officials took corrective actions in response to
our prior recommendations related to nationwide control deficiencies identified in EBT audits
performed since 2006 (see Exhibit A). We found that FNS implemented these recommendations
 as intended. In addition, we evaluated whether FNS or State agencies monitored the financial
viability of the EBT prime processors upon whom they depend to process SNAP transactions, so
that actions could be taken to ensure the continuation of SNAP operations if one or more of the
prime processors were to become insolvent. We found that although FNS defers primarily to
States, the three States we contacted did have contingency plans to replace prime processors if
necessary.

Background

FNS administers SNAP through Federal-State partnerships to assist low income households to
purchase food. Participating households receive monthly benefits to pay for food at participating
authorized food retailers. Approximately $34.6 billion in SNAP benefits were issued in 2008 to
over 12.7 million households for use at more than 175,000 authorized retailers. The Office of
Inspector General (OIG) has monitored and audited the implementation of EBT for SNAP by
FNS and States since April 1995.

Generally, States award contracts to private sector companies, referred to as prime processors, to
develop and operate their EBT systems. These companies are usually financial institutions or
other organizations that already handle debit and credit card systems or electronic funds transfer
activities. In addition, EBT processing functions may also be handled by other companies that
operate existing electronic funds transfer networks. These companies, referred to as third party
processors (TPP), generally contract with retailers who wish to handle other types of electronic
transactions besides SNAP. To process SNAP transactions, each TPP must enter into an
agreement with one of the prime processors which permits the TTP’s point-of-sale terminals at
retail stores to accept EBT transactions. At the time of our audit there were seven prime
processors, 1 and we identified 22 TPPs operating in the SNAP. 2 Each State remains financially
liable to FNS for the actions of their EBT processors, including TPPs.

To become an authorized retailer, a store owner submits an application to FNS. FNS reviews all
applications for accuracy, conducts a background check for past SNAP history, and evaluates the
store for eligibility. For the application to be approved, FNS checks its database of retailers to
determine if the applicant has been disqualified from participating in the SNAP Program.
While the application is being processed, an FNS representative may visit the store to verify
information. If the information is verified and/or the application is approved, FNS authorizes the
store to participate and issues a permit to the retailer. The permit includes a unique 7-digit FNS
authorization number and certifies that the owner and business location are granted approval to
accept and redeem SNAP benefits according to program requirements. The authorization
number is used in each SNAP transaction to identify the retailer. The permit is non-transferable
and is voided by changes involving ownership, location, or the name of business. A retailer
could also lose their permit due to inactivity. FNS routinely monitors retailer activity and
conducts a reauthorization of each authorized store at least once every five years.


1
    Affiliated Computer Services, eFunds, JPMorgan Electronic Financial Services, Northrop Grumman, and Evertec are prime processors. Texas
    and Montana act as their own prime processors.
2
    FNS could not provide us with the total number of TPPs operating in the SNAP.

                                                                                                                                          2
Objectives

Our objectives were to (1) assess whether FNS addressed nationwide control deficiencies
identified since 2006, (2) evaluate retailer verification controls over EBT transactions processed
through third party processors, and (3) assess whether SNAP officials monitor the financial
viability of EBT prime processors if one or more of the States’ prime processors were to become
insolvent.

Details: FNS Controls to Ensure Accurate Retailer Authorization Numbers Could Be
Strengthened

Our analysis of October 2008 settlement data 3 for approximately 60,000 retailers disclosed that
34 retailers processed over $1.1 million in SNAP benefits using FNS authorization numbers that
were actually assigned to other retailers. Although FNS regulations require that the FNS
authorization number accompanying each SNAP transaction be matched to the agency’s database
of authorized retailers, this control did not identify these instances because the authorization
numbers used were valid numbers in the database. Although we identified no instances of fraud,
this weakness could allow the redemption of SNAP benefits by unauthorized individuals or
businesses.

FNS is directly responsible for managing retailer participation, which includes ensuring that only
currently authorized retailers transact benefits. FNS collaborates with States, which hold
contracts with EBT prime processors. FNS also conveys retailer authorization information from
the Retailer EBT Data Exchange (REDE) file directly to the prime processors. The prime
processors use the FNS REDE file to ensure that only authorized retailers are able to pass SNAP
transactions through the system. The prime processors use the data to prevent disqualified or
withdrawn retailers from participating in the program. 4 In addition, each State agency is
responsible for ensuring that their EBT processor verifies the FNS retailer authorization numbers
for all transactions against the National REDE file. 5 Retailers, such as supermarkets that do not
want to use State-issued point-of-sale devices because they transact more than SNAP benefits,
can transact SNAP benefits through a TPP. The State’s EBT prime processor contracts with
TPPs, who then relay their EBT SNAP transactions – including FNS store authorization
numbers and transaction amounts – to the prime processor. The prime processor transmits the
SNAP reimbursements to the TPP, who in turn reimburses each retailer with whom it contracts.

While conducting a 2008 audit of California’s EBT system, 6 we found that TPPs under contract
with the State’s prime processor may not have established controls to check the validity of FNS
retailer authorization numbers. As part of our current audit, we assessed the risk associated with
this potential lack of controls. We selected three prime processors for review and obtained
SNAP settlement data for October 2008 from three of their TTPs. For each of the approximately
60,000 SNAP retailers that participated with the selected TPPs that month, we matched the FNS

3
    This data, provided by the selected TPPs, included the total amounts of SNAP redemptions paid to individual retailers by the TPPs for October
    2008. It also included the name, address, and FNS authorization number for each retailer.
4
    7 C.F.R. 274.12(e)(4).
5
    7 C.F.R. 274.12(h)(10)(v).
6
    Report No. 27099-35-SF, FNS’ Continued Monitoring of EBT Operations – State of California Department of Social Services, December 2008
                                                                                                                                               3
authorization number, the name of the retailer, and the retailer’s address to the FNS REDE file to
verify the retailer’s authenticity.

In this review we found that 2 TPPs processed transactions totaling $1.1 million for 34 retailers
using FNS authorization numbers that belonged to other retailers. Most of these were chain
stores where either the TPP entered the number incorrectly, or corporate administrative
personnel for the chain stores reported the same FNS authorization number to the TPP for
multiple stores. According to TPP representatives, this occurs because chain store administrative
personnel did not always realize that each store had a unique FNS authorization number. For
example, one large retailer had three different stores, each of which had their own corporate
merchant number 7 and FNS retailer authorization number. However, the TPP incorrectly used
the authorization number for one of the stores to process transactions for all three. This situation,
if uncorrected, could in the long term prompt FNS to revoke the authorizations for the other two
retailers due to inactivity.
Another example involved two stores using the same FNS authorization number. These stores
transacted $58,424 and $26,854, respectively. FNS researched this case and found that there was
a change in ownership that was not reported to FNS. The new owner should have applied to
FNS for approval to accept and redeem SNAP benefits while the old owner should have reported
the sale of the store to FNS.
These situations were typical of the issues in the other cases. We worked closely with FNS
Benefits Redemption Division officials to resolve these issues, and also coordinated with various
officials of prime processors and TPPs. In addition, we discussed the 34 cases with OIG’s
investigative staff who also conducted follow-up work. Based on this work, OIG did not detect
any fraudulent activity.
 TPP personnel we interviewed stated that when a retailer applies for the TPP’s services and
submits an FNS retailer authorization number, they are not required to verify that either the
retailer itself or the supplied authorization number is valid. FNS officials stated that there had
not been a history of fraudulent activity associated with one retailer’s use of another’s
authorization number, and that they had tended to deal with occurrences on a case-by-case basis
as they arose. However, without a mechanism to reliably verify the retailer’s authenticity there
is reduced assurance that either FNS, State agencies, or EBT processors would become aware of
such activity were it to occur.

The items we identified were not material enough to justify a formal recommendation. However,
FNS officials agreed that action needed to be taken to address this weakness. As a result, they
proposed to work with the EBT community and strongly encourage the TPPs to (1) use the
REDE file to validate FNS authorization numbers at the time retailers apply for their services;
(2) establish a process for cross-checking FNS authorization numbers against each retailer’s
merchant identification number so that a single authorization number cannot be used by multiple
retailers; and (3) to resolve these issues within a set time period.
No further response to this report is required.

7
    The corporate merchant number is assigned by the TPP in their own unique store numbering system and it is distinct from the FNS
    authorization number.

                                                                                                                                      4
Scope and Methodology

We performed our audit at the FNS Headquarters in Alexandria, Virginia and at one prime
processor’s office in Austin, Texas. To evaluate the adequacy of FNS’ implementation of EBT
operations on a national basis, we conducted interviews of FNS officials, examined
documentation, analyzed data, reviewed FNS policies and procedures, and reviewed OIG audit
reports issued since 2006 (see Exhibit A). Our assessment of FNS’ corrective actions on
nationwide control deficiencies focused on prior audit recommendations concerning system
security, EBT equipment safeguards, unapplied benefits, 8 and State refund controls.

Our evaluation of retailer verification controls reviewed operations of FNS’ Benefit Redemption
Division, EBT prime processors, and TPPs for a one-month period. We selected EBT
transactions from October 2008 because it marked the start of our fieldwork and we expected
data would be readily available. For our review, we selected the three prime processors that had
the most EBT contracts with State agencies. The selected prime processors had a total of
50 contracts. We obtained and analyzed complete settlement data for three TPPs. The data
represented about 30 percent of the retailer settlement totals reported by prime processors for
October 2008. We conducted follow-up interviews with FNS, prime processors, TPPs, and OIG
investigations and made written inquiries as necessary to complete our analyses.

Due to the economic downturn in 2009, we expanded our audit coverage to assess SNAP
officials’ monitoring of the financial viability of EBT prime processors and the potential impact
on EBT operations. We interviewed FNS National office officials and State agency officials
from Maryland, New York, and Wisconsin about their monitoring of the financial viability of
their EBT prime processors.

The audit was performed in accordance with Government Auditing Standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




8
    Transactions that cannot be applied to a specific household EBT benefit record.

                                                                                                    5
Exhibit A: EBT Audits Since 2006


Prior Audit                      Nationwide      Deficiencies           Recommendation
                                 EBT System      Identified             Implemented (Yes
                                 Deficiency                             or No)
                                 Identified
FNS EBT National Office               Yes        Controls over EBT     Yes
Oversight - Report No.                           systems access and
27099-66-Hy - September                          controls to safeguard
2006                                             EBT POS equipment
                                                 needed
                                                 strengthening.
FNS JPMorgan EFS’                     Yes        Controls over         Yes
Oversight - Report No.                           unapplied benefits
27099-69-Hy - September                          and State refunds
2007                                             needed
                                                 strengthening.
Electronic Benefits Transfer          No         Management and        Not Applicable.
System State of Colorado -                       oversight by the
Report No. 27099-68-Hy -                         State agency needed
June 2008                                        to be improved, but
                                                 no EBT system
                                                 deficiencies were
                                                 noted.
FNS’ Continued Monitoring             No         No deficiencies
of EBT Operations – State of                     identified.
California Department of
Social Service – Report No.
27099-35-SF - December
2008


For prior OIG EBT audits since 2006, Exhibit A shows whether the audit identified nationwide
EBT system deficiencies. It describes the deficiencies identified during the audit, and whether or
not the recommendations to correct the deficiencies were implemented.




                                                                                                6
Informational copies of this report have been distributed to:

   Administrator, FNS, Attn: Agency Liaison Officer (8)
   Director, Civil Rights (1)
   Office of Management and Budget (1)
   Government Accountability Office (1)
   Office of the Chief Financial Officer (1)
   Director, Planning and Accountability Division (1)
